CIRCUIT COURT OF PULASKI COUNTY,
LITTLE ROCK, ARKANSAS
401 W Markham St #100, Little Rock, AR 72201
Case: [West Memphis Arkansas] WMC-18-4045

PETITION
REQUEST FOR JUDICIAL REVIEW
AR 25-15-212

rflslllsiiiiils'
VS.

sakima iban salih el bey
Preamble Citizen of the United States
HEREIN Petitioner, Citizen of the United States not United State:*.of.“
of the United States not United States of America requests to obtain a judicial review forth
infringement of OFFICER’S, Johnson, McElroy of the West Memphis, ARpolicedepartm ,
wtooverstepped their jurisdiction to arrest and cite a Preamble Citizen of the United States
government,Pin violation of law. Where, to date the alleged charges on paper have uotbeengiven
fo petitioner where he can prepare a Constitutional rebuttal which appears to be collusion, and
conspiracy to defraud.

STATEMENT

"StaS

MEMPHRSTATE OF

SfonSS in
pSoTer WnCg placedPin the Crittenden County jail and having to give a bondswoman $155is
entitled to judicial review.
DECLARATION

23-119 against OFFICERS Johnson, McElroy of the West Memphis Police department inflicting
statutes’ that are unconstitutional i.e. No License and Reckless Driving inter alia.
tttrt.SDTCTIONAI . VIOLATION

BY WEST MEMPHIS POLICE OFFICERS

Questions Presented
person that is exempt from a
]
Does the Constitution of Arkansas make provision to deny ai.e.
AR 27-16-603(2); AK
‘driver’s license’ in Arkansas who is in compliance with state code
27-23-119 being “exempt”?
Does the Constitution of Arkansas make provision for a police Officer to ignore state law
^titionerlo be exempt under AR 27-16-603 and AR 27-23-119;
that
verifies
immediate oossession he had a “valid driver's license" from his home state, Umted Suites not
United States of America while traveling in his road machine, pursuant to the Preamble o

2

Constitution of the United States inter alia?
3
Why does the Legislature of Arkansas allows Officer'sJohnson McElroy wl
given the valid driver's license of petitioner where ttiey ignored « ™3'

Johnson was
where officer Johnson
Officer Johnson stopped approached and told petitioner he
road machine. Plus, petitioner when

==g32£5^e==SSSsIF
97 16 603- inter alia- where if petitioner was subject to Arkansas state code, AR
exemptspetitioner who was have,log in his "C*ZforZZ^Z^.r,
SX°wWonlrldrAR2T-l‘“603 in that the legislature made provisions for officer's

Johnson, McElroy to use an unconstitutional statute against petitioner in violation of the
Constitution of Arkansas Article 1, sec 1-29 also federal regulation: Article 4, sec. 2 Constitution
of the United States where they are liable and in violation of Article 4, sec. 2 of the Constitution
of the United States & Constitution of Arkansas Article 1 section(s) 1-29?
4
Does the legislature have authority to ignore the Constitution of the United States and
write laws that are unconstitutional and charge a Preamble Citizen of the United States not the
United States of America as listed in the Preamble of the Constitution of the United States and
delegate the West Memphis Police Officers to infringe petitioner’s privileges & immunities?
5
AR Code 27-16-303 is unconstitutional and contrary to AR 27-23-119, where if
petitioner was the defendants jurisdiction, while traveling in his road machine, and in the
jurisdiction of United States not United States of America AR 27-23-119 would apply to him.
Road Machine is not defined in the code and thus applys to petitoner.
6
The claim of defendants for violation of AR 27-51-104 is in error along with no careless
or prohibited driving because there is no evidence of speeding from a clock gun or speed gun to
show a speed over the required speed. There was no pedestrians in danger because there was no
one on the street or in the parking lot. Officer Johnson was sitting at the curb in his vehicle
talking to 3 valet’s, he saw petitioner approach the curb next to him, where petitioner looked
both ways, made the right turn and accelerated at a safe speed towards obtaining a parking spot.
There is no evidence that exists where Office Johnson can tell if petitioner was speeding or
weaving in and out, which did not occur. Officer Johnson made a legal determination, with no
evidence or cause.
STATEMENT OF REQI TEST FOR JUDICIAL REVIEW
Petitioner shows the agency’s final decision was made at the point of arrest, by the legal
determination of the agency, “police department” representatives of West Memphis
police department inter alia.
Judiciary in that State statutes used to charge petitioner out of the jurisdiction of Officer’s
Johnson, McElroy were enforced from an “unconstitutional act of congress” or
“unconstitutionality of state statute” which was established by State legislators which is
unconstitutional. Petitioner will show federal jurisdiction protects him and also the ■
Constitution Article 4, sec. 2 has been used in Arkansas to enforce unconstitutional State
Statutes that create harm, injury, and damage to American Citizens-Petitioner, privileges
and immunities.
This action was perpetrated by officer’s Johnson, McElroy et al, enforcing action from
legislation that is unconstitutional where 'federal jurisdiction’, has not allowed this
unconstitutional act of State statutes or STATE “unconstitutional act of Congress , that
there exists 2 Constitutions of the United States and 2 Declarations of Independence.
These facts of law, verify petitioners position. It also shows the intent of the founders to
have 2 jurisdictions where in the Arkansas code if petitioner was subject to it, shows and

verifies there are 2 statutes. One showing penalty for a suspended driver’s license AR 2716-303, where petitioner never had a Driver’s License [evidence by DMV of S.C.] and
one showing you don’t need a driver’s license AR-27-16-603, AR 27-23-119 inter alia.
Herein petitioner shows and verifies the jurisdiction he is in was violated and he infringed upon
without authority, jurisdiction and a clear absence of all jurisdiction requests that a
“judicial review” be sought to have the charges falsely placed upon petitioner to be
terminated and the fees he was forced to pay be returned to stay any federal action against
the State of Arkansas Congress; West Memphis Police Department; City of West
Memphis for the condoning of jurisdictional violations from clearly established law,
Article 4, sec. 2 Constitution, and EO [Executive Order] 13774 inter alia that the acts of
officers inflicted a “crime” against petitioner who also is a “Tribal Official” [whether
acknowledged by Tennessee, Arkansas et al or not where such tribe is in the United
States not United States of America].
2 Constitutions
September 8th 1787 Representative McHenry of Maryland notes “the printed paper” (the
Constitution) was referred to a committee to revise and rearrange. The revised draft was
reported by the Committee of “Stile and arrangement” on September 12th 1787 and
according to the official Journal, printed copies thereof were ordered furnished to the
members of the convention of the 13 colonies. The 3rd and final draft of the Constitution
was ordered printed by the Convention on September 15th 1787. Also that day, McHenry
wrote in his notes that 500 copies be struck-printed, September 17th 1787 he further
noted “members to be provided with printed copies.” These printed copies were six-page
broadsides bearing the imprint of Dunlap & Claypoole, one which, authenticated by
representative James Madison, has been used as “copy for the present reprint. Then it
was ordered to be engrossed. The engrossed copy was signed by the Members in
Convention on September 17th 1787. The original and engrossed copy is identical except
for the minor interlineations having been made in the engrossed copy to conform to the
original printed text of ‘the paper’ - Constitution of the United States.
2 Declarations of Independence
The only names of the first printed copy of the Declaration of Independence, which is
attached to the original manuscript Journals of Congress as a part of the official record of
proceedings on July 4th 1776, are printed as follows:
“Signed by Order and in Behalf of the Congress, John Hancock, President.
Attest, Charles Thomson, Secretary.”
The manuscript Journal of July 4th 1776 does not contain any other statement in regard to
signing the Declaration at that time or the names of the Members present and agreeing to
its adoption. The official Declaration sent to the state assemblies - 13, and General
Washington for proclamation, by order of Congress - United States in Congress
Assembled, not the United States of America in Congress for it was not set up yet. ,
Where, likewise printed thereon an authentication only by Hancock and Thomson’s’
names were written. Their names are signed to the first-original publication of the

Declaration, on July 6th, 1776. As printed in the evening paper the ‘Pennsylvania
Evening Post of Philadelphia which did not include any other signatures. July 19th 1776,
Congress adopted the following resolution: “Resolved, That the Declaration passed on
July 4th 1776, be fairly engrossed on parchment with the title and stile of ‘The
unanimous Declaration of the thirteen united States of America’ and that the same, when
engrossed, be signed by every member of Congress.”
The Journal of August 2nd 1776, says: “The declaration of independence being engrossed and
compared at the table was signed by the members.”
Summary
The official Constitution was completed August 4th 1787 before September 8th 1787
where it was given to a committee to be revised and rearranged on that day. That new
version completed September 12th 1787 was given to the members to be signed by the
convention; the 2nd Constitution. [See pages 48,49,96th Congress, 1st session House
Document No. 96-143] 2 Constitutions, original for sakima iban salih el bey and the
engrossed copy for officer Johnson, McElroy representative for STATE OF ARKANSAS
et al.
One Citizen having privileges and immunities already Petitioner and the other citizen
STATE OF ARKANSAS et al now entitled to privileges and immunities as laid out in
Article 4 sec. 2 Constitution of the United States.
The original Declaration was completed August 4th 1776, entitled: “A Declaration” [see
page 1 96th Congress, 1st session House Document No. 96-143]. The original was only
signed by John Hancock President, Charles Thomson Secretary August 4th 1776; no
other members present at the Convention signed it - A Declaration. The engrossed copy
July 19th 1776, after July 4th 1776, was “Resolved” to be ‘titled and stiled’ ‘The
unanimous Declaration of the thirteen united States of America’ that document was
engrossed and that one was signed by members of the convention that were present; 2
Declarations, one for sakima iban salih el bey the other for officer’s Johnson, McElroy
representative for STATE OF ARKANSAS et al.
Petitioner requests that the action that is set for appeal now be dismissed with prejudice against
petitioner and erase all evidence of any arrest of petitioner and return the $155 dollars
paid to a bondswoman to get out of the West Memphis jail and $175 to the towing
company for retrieving is road machine.
Finally list in the West Memphis police system that the name of sakima iban salih el bey is out of
their jurisdiction inter alia.
TKis 4th day of Di

iber 2018.

'sakima iban salih el bey

,

ARKANSAS UNIFORM LAW ENFORCEMENT CITATION

'
" RE­
CASE
Ng..^-----

DOCKET NO.____________ ■_____— PAQE NO.-----

STATE OF ARKANSAS

WEST MEMPHIS POLICE DEPT.
COUNTY OF CRITTENDEN
CITY OF WEST MEMPHIS

N2 256412

Yon may present this citation for payment to the court indicated below anytime before
the date and time

a

COURT APTBARANCB

7(1\6 , at BED- m,

DAT OP.

ADDRESS OF COURT 100 COURT ST.. WEST MEMPHIS. AR 72301

870-732*7560

COURT PHONE NO.

»_

1
SIGNATURE . _ .
_____
HKMcanWilMMiMW-hnluart "****».
«* oftonw •* toe b*». oortrwy B «■

&

to Mm, «nd **• t»«WA <n* <t» P**°"

□ YES

C^NO

TIME

YEAR

DAY

MONTS

DAY OF WEBS

■to" (amtat

accident involved

M__
BADGE NO.

JL^hlnmon

RANK AND SIGNATURE OF Qrau&R

□ am.
eirM.

201813*. op

SUM

5y

m
LAST NAME -S

MI

first name

JZ

fttt

UlS

ADDRESS

Byes □ no

seatbelt in use

in

SEX

CDL

EMPLOYED BY
COMMERCIAL VEHICLE

ygmn PKSaUPTTON
MODEL
I BODY TYPE

MAKE
'

□

DRINKING
IN PUBLIC
5*71*212

VEHICLE SEARCH
□ CONSENT
□ INC TO ARB
□ EC
OVER
15-20
11*14
0*10
28 MPH
MPH
MPH
MPH

Ingram

.□

□

n

S3

DWI
545-103

□

□

NO
SEAT
BELT
27-57*782

□

a

NO
VEHICLE
LICENSE
27*14*384

□

□

□

■MTU ZONE
Q
CARELESS
'FOLLOWING
fTWOEB,
LICENSE • TOO CLOSE
DRIVING
27-51*305
SUSPENDED
27-51*104
27*15*383

IMPROPER
PASSING
27*51*307

DROVE
LEFT OF
CENTER
27*51*381

TUiivurs

D
SUSPENDED
FOR DWI
5-55*185

COLOR

---------

gpgRDTNG <OVER LIMIT)
2741401

NO
DRIVER’S
UCENSB
27-154Q0A

STATE

7N

mi—

CJhPvflKfrt tsuv

LOCATION

MPH IN
DU1
5-65-383

□

□

WORK PHONE #
VEHICLE LICENSE NUMBED

HAZ.MAT

runO JW _
P‘

««•

□ yes □koISHLj ISL,

Dns DB no
YEAR

3t

DL STATE

DL NUMBER

□:

□

NO CHILD
SAFETY

NO PROOF OF
INSURANCE
27*22*184

27*34*184

□

restraint

□

rfrana mmNm . INCLUDE STATUTE NUMBER

NUMBER OF OFFENSES: TRAFFIC 2*-----

CRIMINAL
:

u-^s j^rr,,
"£■
OTHER TRAFFIC PRESENT:------l_l
UI"|^M.Mi5iL

□ DARK .

ljrawainaAN

bBEgPENTlAL
□ INDUSTRIAL
□ BUSINBS8
AREA:
□ 4 LANE DIVIDED
□ 4 LANE
Hi LANE
b3LANK
HIGHWAY TYPE:
h PERSONAL INJURY
n property damage
ifffl OF

□ SURAL
UOTHER
□ FATAL

mtiRT COPY/PISPOSmON

7-----

/
>
i

TV.w-n-K

WmA\$, IV.

/4c/^Juji«o^em«.nf of existing T<-il>il
d»com<rt-K4iory Pi’llnj (WflubteS

CONSULS

9

"County
G«h*-h4o4wt\ oPCK^kcHium^i

•-.

TKiUl Tru5+: HoiSHSS

SAKMU^IW**
D0B:fl8r-«-«2
uipferfS^IMiO^1

SMmaHEY

Gkarf^v CKqJCcJuU/nq J /Vo 6 7/^
O^Am. /Jcdbunw tftuL*A.

(yL+JceAum*
Qon&4i+olhn cP Xi Ano:Hoc7//7
ThU l Trt/S+ X/ fau.'/^O 67//5“

' tatokoM*2015

jjotatton; Tennessee

■ntteVictCpnsul

N&tv> C^-Svl

/sse

>
:

SrtiuiOA SEKTCNi

Ttis

■%

m
l;vT

■:-1

•.. i

n

'!?-• 1

H

*r •
i>7
ES

dash'sis

••■

jT'V

$

J**i
Vi.

*
ELECTRONICALLY FILED

Pulaski County Circuit Court
Terri Hollingsworth, Circuit/County Clerk

2019-Jan-30 '11:56:31
60CV-19-542
C06D17 : 1 Page

* **

IN THE CUZuLtCOURT OfIaWl COUNTY, ARKANSAS

HeV/euJ
INRBPETniONl
_____
TO PROCEED IN FORMA PAUPERIS
ORDER G.

CASE NO.

CV
>ERIS

OPROdl

1

On this day comes on to be beard die petition
, The Court being satisfied of the
netted to prosecute the above action JnForma Pauperis
bepe
, IT IS HEREBY ORDERED:
truth of the facts alleged and good cause appearing thereto
1.
That Plaintiff,
b^y .— be authorized and permitted to proceed
in the above-captioned cause, In Forma Pauperis.
is

That the Clerk of the Court si
2.
ithout requiring the payment of fees or costs.
incident to petitioner’s action w
ies of the State of Arkansas shall serve wilts, or
That the sheriffs of fee counties
3.

processes incident to petitioner’s action

without requiring the payment of fees or costs.
f

IT IS SO ORDERED.

i

Date

/

mw7

// l/UrO'fi

i

!

DENIED BY JUDGE MUST PAY $165.00
FILING FEE

Case: 3:19-cv-00053-DPM

Document #: 9-0

Date Filed: 05/13/2019

Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
JONESBORO DIVISION
PLAINTIFF

SAKIMAIBAN SALIH EL BEY
v.

No. 3:19-cv-53-DPM

JOHNSON, Officer, West Memphis
Police Department; MCELROY,
Officer, West Memphis Police
Department; WEST MEMPHIS
POLICE DEPARTMENT; ARKANSAS,
STATE OF; ASA HUTCHINSON; and
DOES, Congress of Arkansas House of
Representatives and Congress of Arkansas
Senate

DEFENDANTS

ORDER
At the Court's request, El Bey has supplemented his motion to
amend. The Court must screen El Bey's complaint, as amended and
supplemented. N* 1,5,7&8;2S U.S.C, § 1915(e)(2). El Bey claims his
constitutional rights were violated when two West Memphis police
officers arrested him Because he's a "Preamble Citizen," he says his
arrest violated federal law. Ns 5 fit 1.
El Bey's claims are barredftkeck v. Himphzey. . 512 U.S. 477,486-87
(1994)$ A judgment in El Bey's favor would necessarily call into
question his state-court conviction for reckless driving without a
license. And he hasn't alleged that his conviction has been reversed,

.... '/"

:¥/

?•

Case: 3:19-cv-00053-DPM

Document #: 9*0

expunged, invalidated, or

Date Filed: 05/13/2019

Page 2 of 2

otherwise called into question. Ibid. He has,

apparently, pursued an appeal in a related civil case. Ns 7 at 4. But his
denied. The
conviction still stands. El Bey's motion to amend, Ns 5, is
Court's Judgment dismissing El Bey's case without prejudice, Ns 4,
remains in place.
So Ordered.
D.P. Marshall Jr.
United States District Judge

/.? /vW» X>\±

<f2-

Case: 3:19-cv-00053

Document #: 4-0

Date Filed: 03/27/2019

Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
JONESBORO DIVISION
S AKIM A IRAN SALIH EL BEY
v.

PLAINTIFF

No. 3:19-cv-53-DPM

JOHNSON, Off icer, West Memphis
Police Department; MCELROY,
Officer, West Memphis Police
Department; WEST MEMPHIS i
POLICE DEPARTMENT; ARKANSAS,
STATE OF; ASA HUTCHINSON; and
DOES, Congress of Arkansas House of
Representatives and Congress of Arkansas
Senate

DEFENDANTS

JUDGMENT
The case is dismissed without prejudice and with leave to
propose an amended complaint by 19 April 2019.

D.P. Marshall Jr.
United States District Judge
tS?

zon

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 19-2384
Sakima Iban Salih, El Bey
Appellant
v.
Johnson, Officer, West Memphis Police Department, et al.
Appellees

Appeal fromtJ.S: DlsmerCtrarrtbrthe^wmBistrict of Arkansas --Jonesboro

MANDATE
In accordance with the opinion and judgment of 12/19/2019, and pursuant to the
provisions of Federal Rule of Appellate Procedure 41(a), the formal mandate is hereby issued in
the above-styled matter.
January 09,2020

Clerk, U.S. Court of Appeals, Eighth Circuit

Ho

'-'--a V M •

